                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 2.0
              Reporting OIG: Amtrak - OIG
         Month Ending Date: 05/31/2009
            Submitter Name: Bret Coulson
       Submitter Contact Info: coulsob@amtrak.com

                                                     Recovery Act Funds Used on Recovery Act Activity
          Agency / Bureau        Recovery Act TAFS        Sub-Account      Award Type       US Indicator          State Code    Total Obligations        Total Gross
                                                             Code                                              (ONLY for grants                            Outlays
                                                          (OPTIONAL)                                            and cooperative
                                                                                                                 agreements)
No.
  1 Amtrak - OIG                                                                                 Y - US                                   $0                 $0
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                          Non-Recovery Act Funds Used on Recovery Act Activity
          Agency / Bureau      Non-Recovery Act TAFS      Sub-Account     Total FY 2009     Total FY 2009        Total FY 2010      Total FY 2010
                                                             Code          Obligations      Gross Outlays         Obligations       Gross Outlays
No.                                                       (OPTIONAL)
  1 Amtrak - OIG                                                                  $73,802            $56,582                   $0                 $0
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                          Amtrak OIG Recovery Act Financial and Activity Report (5 31 09)
                                          OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 3) Version 2.0
     Reporting OIG: Amtrak - OIG
 Month Ending Date: 5/31/2009
   Submitter Name: Bret Coulson
  Submitter Contact
                     coulsob@amtrak.com
               Info:

  Recovery Act New Hires                 Flash Reports                       Testimonies:
    Hired (monthly): none            Issued (monthly):    2           Provided (monthly):    none
  Hired (cumulative):   none      Issued (cumulative):    2        Provided (cumulative):    none


                                   Whistleblower Reprisal                                              Audits / Inspections / Evaluations
         Complaints                                                        Investigations
                                        Allegations                                                                / Reviews
                                                           Monthly Data
          Received:     none                Received:    none                 Opened:          1                        Initiated:      2
                                            Accepted:    none                   Active:        1                     In Process:        2
                                                                      Pending Decision:      none                    Completed:         0
                                                                   Closed without Action:    none
                                                                           Accepted for
                                                                                             none
                                                                            Prosecution:
                                                                     Prosecution Denied:     none
                                                                              Referred for
                                                                                             none
                                                                   Alternative Resolution:
                                                  Cummulative Data Since 2/17/09

          Received:     none                Received:    none      Closed without Action:    none                    Completed:         1
                                                                           Accepted for
                                            Accepted:    none                                none
                                                                            Prosecution:
                                                                     Prosecution Denied:     none
                                                                              Referred for
                                                                                             none
                                                                   Alternative Resolution:




                                                                                Amtrak OIG Recovery Act Financial and Activity Report (5 31 09)
                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 3) Version 2.0
     Reporting OIG: Amtrak - OIG
 Month Ending Date: 05/31/2009
   Submitter Name: Bret Coulson
  Submitter Contact
                     coulsob@amtrak.com
               Info:
        No.                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
         1          Provided counselling on the direction of a major Engineering RFP being published by Amtrak
        2           Completed the first draft of a risk assessment method and toolset geared toward ARRA-funded projects and programs
                    Developed material and conducted a fraud awareness briefing and a project controls review at one of Amtrak's major
        3
                    ARRA work locations
        4           Began working with Amtrak to set up accounting controls that will minimize erroneous charges against ARRA programs
        5
        6
        7
        8
        9
        10

        No.                                 OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                    Refine our department's risk assessment methods and procedures and begin detailed risk analysis of at least one key
        1
                    program
        2           Begin work on an ARRA information brochure to be distributed within Amtrak
        3           Expand briefings on fraud awareness and project / program controls
        4           Complete work with Amtrak on accounting controls
        5
        6
        7
        8
        9
        10




                                                                                 Amtrak OIG Recovery Act Financial and Activity Report (5 31 09)
